APPENDIX
Appendix A. Opinion of the United States District Court,
District of New Jersey (October 2, 2020) ...................................................... App.1
Appendix B. Opinion of the United States District Court,
District of New Jersey (October 28, 2020) .................................................. App.29
Appendix C. Order of the United States Court of Appeals for the Third Circuit
Denying Appellants’ Motion for Injunction (November 10, 2020) ............. App.33

38

APPENDIX A

App.1

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 1 of 27 PageID: 2694

**NOT FOR PUBLICATION**
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

Civil Action No.: 20-5420
REV. KEVIN ROBINSON, et al.,
OPINION
Plaintiffs,
v.
PHILIP D. MURPHY, GOVERNOR OF
THE STATE OF NEW JERSEY, IN HIS
OFFICIAL CAPACITY, et al.,
Defendants.
CECCHI, District Judge.
I.

INTRODUCTION
This case arises out of executive orders issued by Defendant Philip D. Murphy, Governor

of the State of New Jersey (“Governor Murphy”), in response to the global COVID-19 pandemic.
Plaintiffs Reverend Kevin Robinson and Rabbi Yisrael A. Knopfler (collectively, “Plaintiffs”)
filed a Motion for Leave to File a Third Amended Complaint and Temporary Restraining Order
(With Notice) and Preliminary Injunction, 1 seeking to enjoin enforcement of executive orders that
limit the number of individuals who may gather indoors for religious purposes and that extend
certain mask requirements to religious services. ECF No. 55. Defendants Governor Murphy and
Patrick J. Callahan oppose Plaintiffs’ motion for injunctive relief but do not object to the
application for leave to file a Third Amended Complaint. ECF No. 71. 2 The Court heard oral

1

Plaintiffs’ counsel indicated at oral argument that he presently seeks only a preliminary injunction.
Sept. 25, 2020 Hearing Transcript (“Tr.”) at 86:21–24.
2
At oral argument, counsel for Defendants indicated that he had no objection to entry of the
Third Amended Complaint. Tr. at 88:19–20. As Rule 15 of the Federal Rules of Civil Procedure

1
App.2

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 2 of 27 PageID: 2695

argument on the matter on September 25, 2020. ECF No. 95. After consideration of the entirety
of the record, for the reasons set forth below, Plaintiffs’ application for preliminary injunctive
relief is DENIED and Plaintiffs’ application for leave to file the Third Amended Complaint is
GRANTED.
II.

BACKGROUND
A. Factual Background
On March 9, 2020, Governor Murphy declared a State of Emergency and Public Health

Emergency due to the “public health hazard posed by COVID-19,” a contagious and at times fatal
respiratory disease that has claimed the lives of at least 14,344 New Jersey residents. N.J. Exec.
Order 103 at 1, 3–4 (Mar. 9, 2020). Thereafter, to address the ongoing public health risks
associated with COVID-19, Governor Murphy signed a series of executive orders restricting
gatherings and mandating the use of face masks in various indoor and outdoor spaces.
As of September 1, 2020, New Jersey limits the number of individuals who may gather
indoors for religious services to 25 percent of a room’s capacity or 150 people, whichever is lower
(with an allowance for at least 10 people to gather). N.J. Exec. Order 183 at 5 (Sept. 1, 2020).
Congregants are required to wear masks while attending indoor religious services, although they
may remove their masks for religious purposes. N.J. Exec. Order 152 at 10 (June 9, 2020). Outdoor
religious gatherings have no limit on attendance. N.J. Exec. Order 161 at 5 (July 2, 2020). Masks
must be worn when social distancing is impracticable at outdoor religious gatherings, but masks
may be removed for religious purposes. N.J. Exec. Order 163 at 5 (July 8, 2020).

instructs that leave to amend should be granted freely when justice so requires, the Court grants
Plaintiffs’ application to file the Third Amended Complaint and considers it as the operative
pleading in this matter. The Third Amended Complaint names as defendants Governor Murphy,
Patrick J. Callahan, Lamont O. Repollet, Gurbir S. Grewal, and Judith M. Persichilli (referred to
collectively as, “Defendants”).
2
App.3

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 3 of 27 PageID: 2696

Plaintiffs Reverend Robinson and Rabbi Knopfler preside over religious congregations in
New Jersey. They argue that Governor Murphy’s current orders are unconstitutional under the
First and Fourteenth Amendments. ECF No. 56 at 3, 20–21.
1. Initial COVID-19 Executive Orders
Before addressing the constitutionality of the current measures, the Court will provide a
brief overview of Defendants’ COVID-19 executive orders. On March 9, 2020, after presumptivepositive cases of COVID-19 were reported in New Jersey, Governor Murphy began enacting
public health measures aimed at combating the spread of COVID-19. N.J. Exec. Order 103, at 2,
4 (Mar. 9, 2020). First, on March 16, 2020, he ordered the closure of all recreational facilities,
amusement centers, shopping malls, bars, restaurants (except for take-out and delivery services),
gyms, and fitness centers. N.J. Exec. Order 104 at 6–7 (Mar. 16, 2020). Then, on March 21, 2020,
Governor Murphy issued a superseding executive order that required all New Jersey residents to
remain home except for certain enumerated reasons, including religious purposes, and mandated
the closure of all non-essential retail businesses. N.J. Exec. Order 107 at 5–6 (Mar. 21, 2020). The
March 21 executive order also limited the number of persons who could participate in a
gathering—for any purpose—to 10 people, and required all individuals to practice social
distancing and remain six feet apart when in public (excluding household members, family
members, caretakers, and romantic partners). Id. at 3, 5. Governor Murphy also implemented a
statewide contact tracing system, recognizing that “robust and consistent contact tracing state-wide
is critical” to New Jersey’s efforts to respond to COVID-19. N.J. Exec Order 141 at 3 (May 12,
2020).

3
App.4

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 4 of 27 PageID: 2697

2. State Reopening
By late May 2020, when “the rate of reported new cases of COVID-19 in New Jersey [had]
decrease[d]” but “ongoing risks” remained, Governor Murphy began relaxing restrictions on
outdoor gatherings. N.J. Exec. Order 148 at 2–3 (May 22, 2020). Specifically, on May 22, 2020,
he issued Executive Order 148, which increased the limit on outdoor in-person gatherings to 25
people. Id. at 4. Executive Order 148 also permitted any number of individuals to participate in a
gathering where all participants remained in their vehicles. Id. at 5.
The following month, Governor Murphy eased restrictions on indoor gatherings and
permitted some recreational and entertainment businesses, restaurants, and bars to reopen, subject
to a 25 percent room capacity limitation, not to exceed 100 people, and mask mandates. See, e.g.,
N.J. Exec. Order 152 (June 9, 2020); N.J. Exec. Order 156 (June 22, 2020); N.J. Exec. Order 157
(June 26, 2020). On July 2, 2020, he increased the capacity limit for outdoor gatherings to 500
people, with political protests and religious services exempt from this restriction. N.J. Exec. Order
161 at 5 (July 2, 2020).
In early August 2020, in response to an uptick in COVID-19 cases in the State, Governor
Murphy issued Executive Order 173, which lowered the indoor gatherings limit from 100 people
to 25 people. N.J. Exec. Order 173 at 5 (Aug. 3, 2020). The executive order specifically exempted
religious services and celebrations from this limit. Id.
3. Current Gathering Restrictions and Mask Requirements
At present, gathering restrictions and mask use requirements remain in effect in New Jersey
for religious and secular activity, subject to certain exceptions as indicated below.

4
App.5

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 5 of 27 PageID: 2698

a. Religious Worship
Executive Order 183 increased limits on indoor religious gatherings to 25 percent of the
room’s capacity, but not to exceed 150 persons. N.J. Exec. Order 183 at 9 (Sept. 1, 2020). The
order also states that where 25 percent of room capacity would be lower than 10, the gathering can
still include up to 10 persons. Id. Individuals must wear masks at indoor gatherings, but they may
remove their masks for religious purposes. N.J. Exec. Order 152 at 10 (June 9, 2020). For outdoor
religious gatherings, there is no limit on attendance. N.J. Exec. Order 161 at 5 (July 2, 2020). At
outdoor religious gatherings, masks must be worn when social distancing is impracticable, but
masks may be removed for religious purposes as well. N.J. Exec. Order 163 at 5 (July 8, 2020).
b. General Measures
Schools—both religious and secular—may open for in-person instruction, subject to
various restrictions such as: mandatory social distancing, mask-wearing, cleaning protocols, hand
washing at frequent intervals, and student and faculty health screenings. N.J. Exec. Order 175 at
7–9 (Aug. 13, 2020). Furthermore, certain indoor dining and entertaining may resume at reduced
capacity. N.J. Exec. Order 183 (Sept. 1, 2020). Specifically, under Executive Order 183, indoor
dining may resume at 25 percent of capacity. Id. at 4. Entertainment centers may reopen at 25
percent capacity, but not to exceed 150 persons. Id. at 5. With limited exceptions, all patrons and
staff at indoor dining and entertainment establishments must wear masks. Id. at 5, 8. Indoor
gatherings that are not religious gatherings, political activities, wedding ceremonies, funerals, or
memorial services are limited to 25 percent of the room’s capacity, but not to exceed 25 persons,
and are subject to mask requirements. Id. at 9. More generally, with respect to mask requirements,
face coverings are required in public with exemptions, including for children under two, health
and safety concerns, feasibility issues for individuals organizing gatherings, when wearing a mask

5
App.6

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 6 of 27 PageID: 2699

makes an activity physically impossible or impracticable (such as swimming, eating, or drinking),
and religious worship, as discussed above. See N.J. Exec. Order 152 (June 9, 2020); N.J. Exec.
Order 163 (July 8, 2020); N.J. Exec. Order 183 (Sept. 1, 2020). Executive Order 183 continues to
instruct businesses and venues to ensure social distancing is observed. Id.
4. Plaintiffs
Plaintiff Reverend Robinson is a Catholic priest at Saint Anthony of Padua Church in North
Caldwell, New Jersey. ECF No. 56 ¶ 113. The capacity of the Saint of Anthony of Padua worship
space is approximately 100 people and each mass usually has approximately 50 attendees (plus
Reverend Robinson and altar servers), although the total congregation has recently expanded to
175 people. Id. ¶ 116. Reverend Robinson desires to confer sacraments in person as instructed by
Catholic teaching. Id. ¶ 117.
Plaintiff Rabbi Knopfler presides over Congregation Premishlan in Lakewood, New
Jersey. Id. ¶ 133.

Rabbi Knopfler’s congregation has 45 to 50 members, his synagogue

accommodates 30 people, and there must be a quorum of 10 adult males present for synagogue
prayers. Id. ¶¶ 134, 136, 138. Rabbi Knopfler seeks to conduct prayers in the synagogue and is
concerned about holding services outside. Id. ¶¶ 140, 170.
5. Risks Posed by COVID-19
The parties dispute the degree of risk posed by COVID-19. According to Plaintiffs, “[t]he
pandemic is over.” ECF No. 79 at 3. They maintain that the number of deaths associated with
COVID-19 peaked in April 2020 and has not exceeded double digits since June 2020. ECF No. 89
at 3. Plaintiffs further note that the percentage of daily positive tests in New Jersey has drastically
declined in recent months, and that the positivity rate was two percent on September 16, 2020. Id.
at 4. Plaintiffs highlight that the majority of the deaths that occurred in New Jersey are traceable

6
App.7

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 7 of 27 PageID: 2700

to senior living facilities and nursing homes. ECF No. 89 at 3. While they acknowledge that “every
death is a tragedy,” they argue that there is “no emergency” because “people are not dying in”
what they deem to be “statistically significant” numbers. Tr. at 8:11–16.
Defendants counter that the COVID-19 pandemic continues to pose an “unprecedented
public health threat” to both New Jersey and the nation at large. ECF No. 91 at 1. They emphasize
that over 200,000 people have died from COVID-19 nationally, and recent trends show an increase
in positive cases across the country. Id. at 2. On September 21, 2020 alone, Defendants note that
54,874 new cases and 428 new deaths were reported in the United States. Id. at 2. They also note
that while New Jersey’s statistics have improved due to the very public health measures that
Plaintiffs challenge in this case, states without similar restrictions have seen large spikes in positive
cases and deaths. Id. at 4–5. Relatedly, Defendants stress that “outdoor environments present
lower risk of COVID-19 spread than indoor ones,” (ECF No. 71 at 7) and that “medical experts
have strongly reaffirmed that mask wearing is an effective strategy to prevent the spread of the
virus, and scientific studies confirm the propriety of that recommendation.” ECF No. 91 at 5 (citing
to statements from both the Director of the Centers for Disease Control and Prevention and the
Director of the National Institutes for Health, as well as modeling from University of Washington
Institute for Health Metrics). Defendants further direct the Court to modeling that predicts a total
of 375,000 COVID-19-related deaths by January 1, 2021. Id. at 2.
According to the State of New Jersey Department of Health, as of October 2, 2020, New
Jersey has 206,629 total cases. State of New Jersey Department of Health, New Jersey COVID19 Dashboard, https://nj.gov/health/cd/topics/covid2019_dashboard.shtml (last visited Oct. 2,
2020).

7
App.8

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 8 of 27 PageID: 2701

B. Procedural Background
Plaintiff Reverend Robinson commenced this action on April 30, 2020 by filing a
complaint and moving for a temporary restraining order to enjoin enforcement of the COVID-19
executive orders and to declare the orders unconstitutional. 3 ECF Nos. 1–2. After multiple
conferences with the Court and the parties, Reverend Robinson withdrew his motion for a
temporary restraining order. ECF No. 6. Thereafter, the Court denied Defendants’ motion to
consolidate this matter with other cases pending in this District (ECF No. 41), and the parties
engaged in unsuccessful discussions to resolve this matter. Plaintiffs filed the instant motion for
injunctive relief on July 23, 2020 (ECF No. 55), Defendants filed a brief in opposition on August
17, 2020 (ECF No. 71), and Plaintiffs replied in support of the motion on August 27, 2020 (ECF
No. 79). After the parties’ continued attempts to resolve this matter were unsuccessful, the Court
ordered them to submit supplemental briefs updating the Court with respect to the current facts on
COVID-19 in New Jersey and developments in relevant caselaw. ECF Nos. 89, 91. The parties
filed reply briefs on September 23, 2020. ECF Nos. 92–93. The Court held several status
conferences with the parties, and heard oral argument on the motion on September 25, 2020. ECF
Nos. 86, 95. Defendants filed a notice of supplemental authority on October 1, 2020. ECF No. 96.
Plaintiffs assert four claims against Defendants under 42 U.S.C. § 1983 in the Third
Amended Complaint: (1) Count I - Violation of the First and Fourteenth Amendments to the U.S.
Constitution (Free Exercise of Religion – Establishment Clause); (2) Count II - Violation of the
First and Fourteenth Amendments to the U.S. Constitution (Violation of Freedom of Speech,

3

Rabbi Knopfler was added as a Plaintiff in the first amended complaint filed on May 4, 2020.
ECF No. 7.
8
App.9

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 9 of 27 PageID: 2702

Assembly and Expressive Association 4); (3) Count III - Violation of the Fourteenth Amendment
(Equal Protection – Substantive Due Process); and (4) Count IV - Violation of the First and
Fourteenth Amendments (Ultra Vires State Action Under the DCA). ECF No. 56.
III.

LEGAL STANDARD
There are four factors that must be shown to justify the issuance of a preliminary injunction:

“(1) a likelihood of success on the merits; (2) that [the moving party] will suffer irreparable harm
if the injunction is denied; (3) that granting preliminary relief will not result in even greater harm
to the nonmoving party; and (4) that the public interest favors such relief.” Kos Pharms., Inc. v.
Andrx Corp., 369 F.3d 700, 708 (3d Cir. 2004) (citation omitted). If the moving party cannot show
a likelihood of success on the merits, that “must necessarily result in the denial of a preliminary
injunction.” In re Arthur Treacher’s Franchisee Litig., 689 F.2d 1137, 1143 (3d Cir. 1982). A
preliminary injunction is an “extraordinary remedy” and the moving party “bears a particularly
heavy burden in demonstrating its necessity.” Acierno v. New Castle County, 40 F.3d 645, 653 (3d
Cir. 1994); Frank’s GMC Truck Ctr., Inc. v. Gen. Motors Corp., 847 F.2d 100, 102 (3d Cir. 1988).
IV.

DISCUSSION
A. Likelihood of Success on the Merits
The Court begins its analysis by evaluating Plaintiffs’ likelihood of success on the merits

of their claims. To satisfy this factor, Plaintiffs must “make a [p]rima facie case showing a

4

Plaintiffs note in their latest submission that “[a]s to expressive association, although plaintiffs
pled this claim in their proposed Third Amended Complaint, they did not develop it in their Memo
in Support of their Renewed Motion for a Temporary Restraining Order and Preliminary Injunction
(ECF No. 57) and do not press it at this time.” ECF No. 93 at 9. Although the Court need not
resolve Plaintiffs’ expressive association claims at this time, it notes that those claims are not likely
to succeed on the merits for the same reasons set forth infra. See also Grace United Methodist
Church v. City of Cheyenne, 451 F.3d 643, 658 (10th Cir. 2006) (noting expressive association is
“implicitly” protected by the First Amendment and analyzing Freedom of Speech and Expressive
Association Claims together).
9
App.10

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 10 of 27 PageID: 2703

reasonable probability that [they] will prevail on the merits.” Oburn v. Shapp, 521 F.2d 142, 148
(3d Cir. 1975) (citation omitted).
To determine whether Plaintiffs have shown a likelihood of success on the merits of their
claims, the Court must first determine what level of constitutional review to apply. The Court
begins by reviewing recent decisions addressing similar issues in the context of the COVID-19
pandemic to determine how the claims at issue here should be analyzed.
1. Recent COVID-19 Decisions
In Dwelling Place Network, et al. v. Philip D. Murphy, et al., a number of different
churches throughout New Jersey sought to preliminarily enjoin enforcement of the indoor
gatherings restrictions on similar grounds to those presented here, arguing that the restrictions
unfairly targeted religious activity and that the regulations were not necessary to combat the
COVID-19 pandemic. At a hearing on the motion, the Honorable Robert B. Kugler, U.S.D.J.,
found that the “executive order . . . currently under challenge and the other executive orders are
laws of general applicability that impose equal burdens on religious and non-religious activities.
Thus, they are subject to rational review basis.” Dwelling Place Network, et al. v. Philip D.
Murphy, et al., No. 20-6281, June 15, 2020 Tr. at 68:19–23. Judge Kugler made this finding based
on the equal application of the indoor gatherings restrictions to religious and secular activity, and
noted that New Jersey has consistently made efforts to accommodate religious activity that are
reflected in the executive orders. Judge Kugler observed that the State never closed houses of
worship, exempted individuals from curfew and travel restrictions for religious purposes, allowed
unlimited outdoor religious services, and placed exceptions in the mask requirements for religious
services. Id. at 68:23–69:16. Judge Kugler found that the indoor gatherings restrictions easily

10
App.11

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 11 of 27 PageID: 2704

passed rational basis review and denied the plaintiffs’ motion for a preliminary injunction. Id. at
69–72.
On August 18, 2020, the Honorable Brian R. Martinotti, U.S.D.J., issued an opinion
denying a preliminary injunction to plaintiffs challenging New Jersey’s COVID-19 restrictions on
movie theaters in National Association of Theatre Owners, et al. v. Philip D. Murphy, et al. Judge
Martinotti held that New Jersey’s indoor gatherings restrictions satisfied rational basis review as
there were no differences in the restrictions’ application to various groups based on animus and
because the State had shown that any distinctions were based on a “conceivable justification that
keeping movie theaters closed while opening churches, shopping malls, and libraries, is rationally
related to the goal of stopping the transmission of COVID-19.” Nat’l Assoc. of Theatre Owners,
et al. v. Philip D. Murphy et al., No. 20-8298, slip op. at 29–30 (D.N.J. Aug. 18, 2020). Notably,
the plaintiffs in that case, movie theater owners and associated organizations, complained that
religious groups were being treated more favorably than other groups under the COVID-19
executive orders despite the risks posed by congregants gathering indoors for religious services.
Id. at 27. Judge Martinotti found that, with respect to the theater owners’ freedom of speech
claims, the relevant executive order was a “content-neutral regulation that passes muster under
intermediate scrutiny.” Id. at 23.
On August 20, 2020, the Honorable Reneè Marie Bumb, U.S.D.J., issued an opinion
denying a preliminary injunction sought by a group of church plaintiffs, finding that “Governor
Murphy’s restrictions on indoor gatherings are neutral and generally applicable on their face” and
that the orders were constitutional because “Plaintiffs have been unable to demonstrate that the
restrictions on indoor gatherings were crafted with religious animus, have been applied unequally,
or lack a rational relationship to a legitimate government objective.” Solid Rock Baptist Church,

11
App.12

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 12 of 27 PageID: 2705

et al. v. Philip D. Murphy, et al., No. 20-6805, slip op. at 23, 30 (D.N.J. Aug. 20, 2020). In so
finding, Judge Bumb acknowledged that “such limitations are hard to swallow for those who turn
to prayer and fellowship, especially in times of hardship and suffering,” and that some might
question the “precise limitations” imposed by New Jersey, but ultimately concluded that “Supreme
Court precedent counsels that States should be given broad deference when enacting regulations
to protect public health and safety.” Id. at 26–27.
There have also been two cases involving very similar issues that reached the Supreme
Court of the United States during the pandemic. In May, the Supreme Court received an appeal
requesting injunctive relief against California’s emergency order limiting indoor religious
gatherings to 25 percent of capacity or a maximum of 100 people, but allowing stores to remain
open without similar restrictions. S. Bay Pentecostal United Church v. Newsom, 140 S. Ct. 1613
(2020). The appeal was denied without a written majority opinion, but Chief Justice Roberts filed
a concurring opinion in which he noted that state officials must be given broad latitude to protect
public health during an emergency based on Jacobson v. Massachusetts, 197 U.S. 11 (1905).
According to Chief Justice Roberts, “[w]here those broad limits are not exceeded, they should not
be subject to second-guessing by an ‘unelected federal judiciary,’ which lacks the background,
competence, and expertise to assess public health and is not accountable to the people.” S. Bay
Pentecostal United Church, 140 S. Ct. at 1613–1614 (May 29, 2020) (Roberts, C.J., concurring)
(internal citation omitted).
On July 24, 2020, the Supreme Court also declined to overturn the denial of a preliminary
injunction sought by a church challenging Nevada’s COVID-19 orders. See Calvary Chapel
Dayton Valley v. Sisolak, et al., 140 S. Ct. 2603 (2020). In that case, Nevada’s restrictions limited
attendance at religious services to no more than 50 people regardless of building capacity, while

12
App.13

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 13 of 27 PageID: 2706

allowing casinos and entertainment venues to operate at 50 percent of their maximum capacity
with no numerical limit. Id. at 2603. Despite the restrictions on indoor religious services at issue
in that case, the Supreme Court denied the Nevada church’s request for injunctive relief.
Applying the guidance of these recent decisions, the Court will now review the Plaintiffs’
likelihood of success on the merits for each of their claims.
2. Free Exercise of Religion Claims
Plaintiffs contend that Defendants’ indoor gatherings restrictions and mask requirements
violate the Free Exercise Clause because they are neither neutral nor generally applicable and fail
strict scrutiny review. ECF No. 57 at 2. In the alternative, Plaintiffs argue that even if the executive
orders are neutral and generally applicable, they still do not survive rational basis review. ECF No.
93 at 8. Defendants counter that these measures are subject to, and satisfy, rational basis review
because they are valid laws of neutral and general applicability and are consistent with the State’s
authority to address emergencies. ECF No. 92 at 5. The Court agrees with Defendants.
“[A] free exercise claim can prompt either strict scrutiny or rational basis review. If a law
is ‘neutral’ and ‘generally applicable,’ and burdens religious conduct only incidentally, the Free
Exercise Clause offers no protection.” Tenafly Eruv Assoc., Inc. v. Borough of Tenafly, 309 F.3d
144, 165 (3d Cir. 2002) (internal citation omitted). “[A] regulation will pass muster under a
rational basis review if there is a plausible policy reason for the justification, based on the science
available at the time—whether or not that science or those reasons ultimately turn out to be
incorrect.” See Nat’l Assoc. of Theatre Owners, et al., No. 20-8298, slip op. at 29 (citation omitted).
Here, the Court finds that the challenged measures are subject to rational basis review
because they are generally applicable and neutral laws that burden secular and religious activity
alike. The State’s policies are designed to combat the spread of COVID-19 in New Jersey given

13
App.14

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 14 of 27 PageID: 2707

the current understanding of the virus which the Court finds is undoubtedly a legitimate
governmental interest. See id. at 29. In addition, under Jacobson, courts accord deference to the
State when it is dealing with public health emergencies as Chief Justice Roberts noted in his South
Bay United Pentecostal Church concurrence. S. Bay United Pentecostal Church, 140 S. Ct. at 1613
(quoting Jacobson, 197 U.S. at 38) (Roberts, C.J., concurring) (“The precise question of when
restrictions on particular social activities should be lifted during the pandemic is a dynamic and
fact-intensive matter subject to reasonable disagreement. Our Constitution principally entrusts
‘[t]he safety and the health of the people’ to the politically accountable officials of the States ‘to
guard and protect.’”). The indoor gatherings restrictions and mask requirements clearly surpass
this standard as they attempt to allow New Jersey citizens freedom to participate in important
activities, such as religious worship, while implementing measures to contain outbreaks of
COVID-19 and limit the number of COVID-19 deaths based on the best available information. See
Harvest Rock Church Inc. v. Newsom, No. 20-6414, 2020 WL 5265564, at *3 (C.D. Cal. Sept. 2,
2020) (“Because the Orders restrict indoor religious services similarly to or less than comparable
secular activities, it is subject to rational basis review, which it easily passes.”). 5
Furthermore, contrary to Plaintiffs’ assertions, the Court finds that the laws are not
substantially underinclusive requiring the application of strict scrutiny, as the indoor gatherings
restrictions contain similar exceptions for religious purposes and for secular purposes, indoor
religious gatherings have higher maximum capacities than secular indoor gatherings, and, as
Plaintiffs themselves acknowledge, there are both feasibility and religious purpose exceptions
included in the mask requirements. See ECF No. 89 at 5; Legacy Church, Inc. v. Kunkel, No. 20-

5

On October 1, 2020, the Court of Appeals for the Ninth Circuit denied plaintiffs’ motion for an
injunction pending appeal. Harvest Rock Church, Inc. v. Newsom, No. 20-55907, 2020 WL
5835219, at *2 (9th Cir. Oct. 1, 2020).
14
App.15

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 15 of 27 PageID: 2708

0327, 2020 WL 3963764, at *109 (D.N.M. July 13, 2020), appeal filed, Legacy Church Inc. v.
Kunkel, No. 20-2117 (10th Cir. Aug. 12, 2020) (“[R]eligious organizations have received
preferential treatment relative to their closest comparators -- in terms of physical set-up and risk,
not necessarily meaning. Movie theatres and concert halls are spaces where people gather and sit
together for a period of time similar to Legacy Church’s auditorium. . . . Thus, the April 11
Order is not underinclusive even though it has different restrictions for places of religious
worship than it does for essential services necessary for everyday life and survival that cannot be
done remotely.”). Thus, Plaintiffs have not shown a likelihood of success on the merits of their
Free Exercise of Religion claims.
3. Freedom of Speech and Assembly Claims
Plaintiffs argue that the challenged measures violate their rights to Freedom of Speech and
Freedom of Assembly because they are content-based regulations that fail strict scrutiny review.
ECF No. 93 at 9. Plaintiffs also maintain that their claims would succeed even if the regulations
are deemed content-neutral and intermediate scrutiny is applied. Id. Defendants respond that the
subsidiary Freedom of Speech and Freedom of Assembly claims lack merit because they are
dependent on Plaintiffs’ failed Free Exercise claims. ECF No. 92 at 6. In the alternative,
Defendants assert that the measures are permissible content-neutral regulations subject to
intermediate scrutiny. Id. The Court agrees with Defendants that the challenged measures are
permissible content-neutral regulations.
Plaintiffs’ Freedom of Speech and Freedom of Assembly claims must be reviewed under
intermediate scrutiny because the challenged regulations are content-neutral. See Nat’l Assoc. of
Theatre Owners, et al., No. 20-8298, slip op. at 20. The Court finds that the challenged orders are
content-neutral because they do not “distinguish favored speech from disfavored speech on the

15
App.16

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 16 of 27 PageID: 2709

basis of the ideas or views expressed.” See Turner Broad. Sys., Inc. v. F.C.C., 512 U.S. 622, 643
(1994). The indoor gatherings restrictions and mask requirements satisfy intermediate scrutiny
review as they are narrowly tailored, serve a significant governmental interest, and allow ample
alternative means of communication. See Startzell v. City of Phila., 533 F.3d 183, 201 (3d Cir.
2008).
As an initial matter, the orders permit masks to be removed at indoor gatherings: (1) for
religious purposes; and (2) when wearing one is not feasible for the individuals organizing or
maintaining the gathering. See N.J. Exec. Order 152 (June 9, 2020). Under the first exception,
congregants may remove their masks to engage in certain religious activities like accepting
communion and drinking from a Kiddush cup. ECF No. 71 at 34. Under the second exception,
organizers and maintainers of religious gatherings need only wear masks “whenever feasible” and
“whenever they are within six feet of another individual, except where doing so would inhibit the
individual’s health.” N.J. Exec. Order 152 (June 9, 2020). As Defendants noted in their opposition
brief, the feasibility exception for organizers and maintainers “applies to religious gatherings too,
meaning that it once again does not discriminate against religion in favor of secular gatherings,
but continues to treat the two alike.” ECF No. 71 at 34 n.12.
Furthermore, the challenged orders serve a significant government interest in protecting
public health in the midst of the COVID-19 pandemic. They have been continually adapted and
modified to ensure they are narrowly tailored to serve that interest, and they allow ample
alternative means of communication such as holding outdoor services (with protective coverings
for persons or equipment, if needed), staggering indoor services, holding services in available
larger buildings, or streaming services digitally. See Tr. at 51:1–10 (“And I know they’ve indicated
that . . . they cannot engage in their services outdoors although many other religious organizations

16
App.17

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 17 of 27 PageID: 2710

have been doing that. But even if that option is not available to them and even if virtual worship
services are not available to them, even though that is another option that many organizations have
partaken in, it is not an undue burden for them to be able to accommodate their two services per
day, which is what each of them say they would do anyway by finding a larger worship space.”);
Nat’l Assoc. of Theatre Owners, et al., No. 20-8298, slip op. at 22 (finding that outdoor movie
theaters and at-home movie streaming options qualified as “ample alternative methods of
communication” to indoor movie screenings) (internal citation and quotation marks omitted).
Although these alternatives may not be Plaintiffs’ preferred channels of communication and may
require additional planning, the Court is persuaded that Plaintiffs are able to practice their religions
in alternative ways under the challenged orders.
Plaintiffs urge the Court to follow County of Butler v. Wolf, No. 20-677, 2020 WL 5510690
(W.D. Pa. Sept. 14, 2020), an out-of-district case involving constitutional challenges to
Pennsylvania’s gathering restrictions, business closure orders, and stay-at-home orders, to find that
Defendants’ executive orders fail intermediate scrutiny.6

Contrary to Plaintiffs’ assertions,

however, County of Butler is of little instructive value here. First, unlike the instant case, County
of Butler did not involve claims related to religious activities. Indeed, the County of Butler court
expressly noted that Pennsylvania’s “gathering limits specifically exempt religious gatherings.”
Id. at *11. Second, the gathering limits at issue in County of Butler were more restrictive than the
orders challenged by Plaintiffs here. The Pennsylvania orders placed restrictions on both indoor
and outdoor gatherings; indoor gatherings were limited to 25 people, while outdoor gatherings

6

On October 1, 2020, the Court of Appeals for the Third Circuit stayed the district court’s order
in County of Butler pending appeal. Cnty. of Butler, et al. v. Governor of Pa., No. 20-2936 (3d
Cir. Oct. 1, 2020).

17
App.18

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 18 of 27 PageID: 2711

were limited to 250 people. Id. at *1 n.1. Here, by contrast, Defendants’ operative executive orders
restrict indoor religious services to the lower of 25 percent room capacity or 150 people, and permit
an unlimited number of people to gather outdoors for religious services. See N.J. Exec. Orders
152, 183. Third, as Defendants properly note, the County of Butler court relied on comparisons to
retail operations, which Chief Justice Roberts has indicated are “dissimilar” from houses of
worship. See S. Bay United Pentecostal Church, 140 S. Ct. at 1613 (Roberts, C.J., concurring).
Finally, and in any event, the record indicates that the orders here are narrowly tailored to
serve a significant government interest. As Plaintiffs acknowledge in their moving brief, the
executive orders have been amended multiple times over the course of the past few months. See,
e.g., ECF No. 78 at 1. The enactment history of the executive orders reveals that Defendants have
continued to relax restrictions on religious gatherings in response to the changing conditions of the
unprecedented public health crisis. For example, by executive order dated March 21, 2020,
Governor Murphy directed New Jersey residents to “remain home or at their place of residence,”
except for certain enumerated reasons, including religious reasons, and canceled “[g]atherings of
individuals” to “mitigate community spread of COVID-19.” N.J. Exec. Order 107 at 3, 6 ¶ 5 (Mar.
21, 2020). Two months later, when “the rate of reported new cases of COVID-19 in New Jersey
decrease[d]” but “ongoing risks” remained, Governor Murphy issued an executive order increasing
the capacity limit on outdoor gatherings to 25 people. N.J. Exec. Order 148 at 2, 6 ¶ 1 (May 22,
2020). By June 9, 2020, the State permitted indoor gatherings of up to 25 percent of a room’s
capacity, but never larger than 50 people. N.J. Exec. Order 152 at 6 ¶ 1 (June 9, 2020). The State
noted that the gathering restrictions were “tailored to the harms that each gathering presents,
meaning that indoor in-person gatherings must comply with a more stringent limitation than
outdoor in-person gatherings.” Id. at 4–5 (explaining that “because public health experts have

18
App.19

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 19 of 27 PageID: 2712

identified that outdoor environments present reduced risks of transmission as compared to indoor
environments, it is appropriate to adjust the restrictions relative to gatherings that happen outdoors
even more considerably”). In September 2020, the restrictions were further relaxed. N.J. Exec.
Order 183 (Sept. 1, 2020). As it is clear that Defendants have continued to loosen gathering
restrictions as conditions warrant, the restrictions satisfy intermediate scrutiny. Plaintiffs have
failed to show a likelihood of success on the merits of their Freedom of Speech and Assembly
claims.
4. Equal Protection – Substantive Due Process Claims
Plaintiffs claim that the challenged measures violate the Equal Protection Clause because
they burden Plaintiffs’ fundamental free exercise rights while treating similarly situated activities
more favorably, and therefore fail strict scrutiny, or, in the alternative rational basis review. ECF
No. 57 at 22–23; ECF No. 93 at 9–10. Defendants argue that rational basis review applies because
the challenged orders do not involve a suspect classification and do not target fundamental rights.
ECF No. 92 at 8. The Court agrees with Defendants.
Plaintiffs’ Equal Protection and Substantive Due Process claims are reviewed under the
rational basis standard because the indoor gatherings restrictions and mask requirements are not
based on a suspect or quasi-suspect classification and are evenly applied to religious and secular
activity. See L.A. v. Hoffman, 144 F. Supp. 3d 649, 673 (D.N.J. 2015). The Court finds that the
challenged orders satisfy rational basis review because Defendants have provided adequate
justifications for their treatment of religious activity and comparable activity and they are
rationally related to the legitimate governmental interest of protecting citizens against COVID-19.
See In re Asbestos Litig., 829 F.2d 1233, 1238 (3d Cir. 1987) (internal citations omitted) (“As a
general rule, classifications that neither regulate suspect classes nor burden fundamental rights

19
App.20

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 20 of 27 PageID: 2713

must be sustained if they are rationally related to a legitimate governmental interest.”). The state
has accommodated religious services throughout the pandemic by placing feasibility and religious
purpose exceptions in the mask requirements, allowing houses of worship to remain open, and
exempting travel for religious purposes from the statewide curfew and travel restrictions.
Defendants have also continuously allowed people to gather indoors for religious purposes while
initially closing places that host secular activities such as movie theaters, concert halls, and other
indoor entertainment and gathering places. Currently, as noted above, indoor gatherings for
religious services have a 25 percent capacity limit not to exceed 150 people, while indoor
gatherings that do not involve religious services have a 25 percent capacity limit not to exceed 25
people. See N.J. Exec. Order 183.
While Plaintiffs argue that the opening of schools (and childcare centers) 7 is “the most
obvious” comparator that shows the indoor gatherings restrictions and mask requirements are not
being applied neutrally and generally, the Court is not persuaded. ECF No. 79 at 7. Defendants
have pointed to differences between these activities and religious services that rationally explain
the varied limitations that apply to each activity, including: schools have the same attendees every
day and are not open to the general public, they take place across the full day and are therefore
difficult to stagger, and it is difficult to teach and supervise children outside. ECF No. 71 at 28–

7

The Court notes that childcare centers have been re-opened subject to a litany of COVID-19
measures, such as: screening staff and children for COVID-19 symptoms prior to entry each
day, minimizing group sizes to 10 children, ensuring 10 feet of separation between groups at all
times, avoiding crowding at pick up and drop off times, and strictly limiting the sharing of
supplies, food, toys, and other items. See N.J. Exec. Order 149 (June 9, 2020); New Jersey
Department of Health Children and Safety Guidelines, May 29, 2020, available at
https://www.nj.gov/dcf/news/Final.CC.Health.and.Safety.Standards.pdf. While childcare centers
are, like schools, imperfect comparisons to indoor religious services, the Court nonetheless finds
that the restrictions imposed on childcare centers are similar in scope to those placed on indoor
religious services and rationally based on the type of activity that occurs in such places.

20
App.21

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 21 of 27 PageID: 2714

29. Plaintiffs’ insistence on comparing indoor religious gatherings to schools is not persuasive
because both indoor religious gatherings and schools are subject to analogous orders that alter the
normal way these activities are conducted and require adaption in light of the pandemic at hand.
For instance, the executive order that allowed schools to open contains a laundry list of
requirements, such as additional required health screenings, compliance with the mask
requirements, frequent hand washing breaks, intense cleaning protocols, and requirements for air
filtration system standards. N.J. Exec. Order 175 (Aug. 13, 2020). Executive Order 175 also
explains that in schools “contact tracing [is] substantially easier in the event of an outbreak.” Id.
That these orders are not exactly the same does not sway the Court’s conclusion, as those
differences are rational and fall well within the State’s discretion under the current circumstances.
See Solid Rock Baptist Church, No. 20-6805, slip op. 30 (“Plaintiffs have not met their burden of
demonstrating that the restrictions on indoor religious gatherings have been applied
discriminatorily or lack a rational relationship to a legitimate government interest.”).
Plaintiffs further attempt to compare such disparate activities and venues as homeless
shelters, casinos, mass transit, liquor stores, and pet stores to indoor religious gatherings. These
comparisons are unpersuasive. Unlike houses of worship, the referenced activities and venues
generally do not involve large groups of people congregating closely together, in one location, for
extended periods of time, and for the same purpose. Religious services, in fact, are precisely
designed to foster fellowship and communal interactions. Cross Culture Christian Ctr. v. Newsom,
445 F. Supp. 3d 758, 770 (E.D. Cal. 2020), appeal dismissed, No. 20-15977, 2020 WL 4813748
(9th Cir. May 29, 2020) (citation omitted) (“In-person church services, on the other hand, are ‘by
design a communal experience, one for which a large group of individuals come together at the
same time in the same place for the same purpose.’”). When examining houses of worship, Chief

21
App.22

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 22 of 27 PageID: 2715

Justice Roberts noted that more comparable venues are “lectures, concerts, movie showings,
spectator sports, and theatrical performances, where large groups of people gather in close
proximity for extended periods of time” and “dissimilar activities [are] operating grocery stores,
banks, and laundromats, in which people neither congregate in large groups nor remain in close
proximity for extended periods.” S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. at 1613
(Roberts, C.J., concurring). Plaintiffs’ wide-ranging comparisons are thus unavailing here.
In addition, the Court notes that the secular indoor gatherings restriction is more restrictive
than the religious indoor gatherings restriction (allowing 25 percent of capacity only up to 25
people for secular indoor gatherings instead of up to 150 people for religious indoor gatherings)
and applies to any “gatherings” that could potentially take place in the establishments that Plaintiffs
proffer as comparators. See ECF No. 92 at 2–3 (“[G]atherings in retail stores or any of the other

businesses that have reopened are subject to the same limits as they are in any other venue—very
much including restaurants. For another, the heart of Plaintiffs’ challenge is to the 25 percent
restriction on gatherings, and restaurants (like a long list of other venues) are similarly subject to
a 25 percent restriction at all times, whether or not they are hosting a gathering.”); N.J. Exec. Order
157 at 19 (June 26, 2020) (emphasis added) (“Individuals who are at any of these businesses at a
specific time, a specific location, and for a common reason, such as a poker tournament at a casino,
a wedding at a restaurant, or an outdoor concert or movie screening, are subject to the State
gathering limits in effect at that time.”). For these reasons, the Court finds that Plaintiffs have
not shown a likelihood of success on the merits of their Equal Protection claims.
5. Establishment Clause Claims
Plaintiffs assert that the orders violate the Establishment Clause because Defendants are
attempting to dictate the precise manner in which Plaintiffs and their congregants worship. They

22
App.23

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 23 of 27 PageID: 2716

further contend that “by mandating crude and medically useless face coverings,” Defendants have
made it difficult to say mass or teach the Jewish faith. ECF No. 56 at 54; ECF No. 57 at 17. The
Court finds that the indoor gatherings restrictions and mask requirements pass constitutional
muster.
Plaintiffs contend that their Establishment Clause claims should be reviewed under a test
to determine “whether defendants’ restrictions violate the principal of internal church governance
and autonomy.” ECF No. 93 at 8 (citing Our Lady of Guadalupe Sch. v. Morrissey-Berru, 140 S.
Ct. 2049, 2060 (2020)). During the September 25, 2020 hearing, Plaintiffs also argued that their
Establishment Clause claims additionally succeed under Lemon v. Kurtzman, 403 U.S. 602 (1971).
Tr. at 90:16–22. Under Lemon, the challenged law must have a secular legislative purpose, its
primary effect must be one that neither advances nor inhibits religion, and it must not foster an
excessive government entanglement with religion. 403 U.S. at 612–613. Defendants contend that
the restrictions and orders pass under both Our Lady of Guadalupe School and Lemon. ECF No.
92 at 7; Tr. at 90:24–91:12.
The Court finds that the challenged orders easily satisfy both tests set forth by the parties.
Our Lady of Guadalupe School, cited by Plaintiffs, holds that the independence of church and state
“does not mean that religious institutions enjoy a general immunity from secular laws, but it does
protect their autonomy with respect to internal management decisions that are essential to the
institution’s central mission.” 140 S. Ct. at 2060. In that case, the Supreme Court found that hiring
and firing of religious teachers fell within the purview of the Establishment Clause and ruled that
“judicial intervention into disputes between the school and the teacher threatens the school’s
independence in a way that the First Amendment does not allow.” Id. at 2069. In contrast, the
indoor religious gatherings restrictions under COVID-19 are no more of an intrusion into matters

23
App.24

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 24 of 27 PageID: 2717

of internal religious governance than safety laws set forth by the State that both Plaintiffs must
abide by at all times. Similarly, the mask requirements are a general public health measure directed
at all citizens of the State of New Jersey. These orders are not attempts to reach into Plaintiffs’
internal matters of religious governance, faith, or doctrine.
The indoor gatherings restrictions and mask requirements pass muster under the Lemon
test for largely the same reasons, as their legislative purpose of slowing the spread of COVID-19
is secular, their primary effect is advancing public health, and they do not foster an excessive
government entanglement with religion as they apply to all activity. Lemon, 403 U.S. at 612–13.
Plaintiffs have therefore not shown a likelihood of success on the merits of these claims.
6.

Ultra Vires State Action Claims

Finally, Plaintiffs allege that that their Due Process Ultra Vires claims must be reviewed
to see if the challenged orders “were closely tailored to the magnitude of the emergency” and must
fail if they are “arbitrary and capricious and without rational basis under the Fourteenth
Amendment.” ECF No. 93 at 10 (internal citations omitted). Defendants urge the Court not to
consider these claims as they are prohibited based on the State of New Jersey’s sovereign immunity
barring such claims under the Eleventh Amendment. ECF No. 92 at 9 (citing King v. Christie, 981
F. Supp. 2d 296, 310 n.12 (D.N.J. 2013)).
The Court notes Defendants’ strong argument that the State Action claims are barred under
sovereign immunity ensconced in the Eleventh Amendment to the United States Constitution. ECF
No. 92 at 9. Even if the Court were to consider these claims, Plaintiffs argue that the challenged
orders must be closely tailored to the emergency at hand and must pass rational basis review under
the Fourteenth Amendment. As discussed at length above, the Court finds that the restrictions are
closely tailored to the ongoing public health emergency and satisfy rational basis review. Given

24
App.25

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 25 of 27 PageID: 2718

these two points, Plaintiffs’ ultra vires state action claims also do not appear likely to succeed on
the merits.
B. Irreparable Harm
Although Plaintiffs’ motion for a preliminary injunction cannot be granted without
showing a likelihood of success on the merits, the Court will briefly analyze the remaining factors
here. The second factor, whether Plaintiffs will suffer irreparable harm if the injunction is denied,
is closely linked to the first factor in this case because Plaintiffs argue that the irreparable harm
they will suffer is their continued loss of constitutional rights. ECF No. 57 at 23–24. As Plaintiffs
have failed to show a likelihood of success on the merits of their constitutional speech and religion
claims, the Court finds that they have not shown they will suffer irreparable harm if injunctive
relief is denied. Brown v. U.S. Dept. of Homeland Sec., No. 20-0119, 2020 WL l1911506, at *8
(M.D. Pa. Apr. 20, 2020) (internal citation omitted) (“The requirements of irreparable harm and
likelihood of success on the merits are correlative: that is, the weaker the merits showing, the more
will be required on the showing of irreparable harm, and vice versa.”). Defendants have set forth
convincing arguments on this factor. They note that they have taken great pains to allow houses
of worship to engage in the very important right of religious expression during the pandemic by
allowing multiple staggered services with smaller numbers of attendees, services held outdoors
(with protective coverings, if necessary), services streamed digitally, and services with full
congregations of up to 150 people if they are held in rooms with large enough capacities. They
further noted that even if the above options are not available to them, Plaintiffs can also move their
services to a larger worship space. Tr. at 51:4-10; ECF No. 71 at 38. The Court finds that, based
on the record before it, Plaintiffs have been afforded opportunities to practice their religions despite
the State’s COVID-19 response. See Nat’l Assoc. of Theatre Owners, et al., No. 20-8298, slip op.

25
App.26

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 26 of 27 PageID: 2719

at 31–32; Legacy Church, Inc., 2020 WL 3963764, at *99 (internal citation omitted) (“Requiring
plaintiffs to demonstrate that they are likely to suffer irreparable injury also tends to collapse
the irreparable harm factor in the likelihood of success on the merits factor -- at least where a
plaintiff alleges constitutional harms. . . . As before, without a constitutional violation to point to,
Legacy Church has not demonstrated that irreparable injury was likely.”). The second factor of
irreparable harm has therefore not been met.
C. Balance of Equities and Public Interest
The last two factors, whether granting preliminary relief will result in even greater harm to
the nonmoving party and whether the public interest favors such relief, also weigh against granting
a preliminary injunction. While the Court is sympathetic to Plaintiffs’ contentions and recognizes
the great importance of the rights at issue in this matter, the interests of the Defendants and the
general public at stake here—namely, preserving lives in the midst of an unprecedented pandemic
that has resulted in the deaths of over 200,000 Americans and one million people worldwide—are
particularly difficult to overcome. See Dwelling Place Network, et al., No. 20-6281, June 15, 2020
Tr. at 70:19–24 (“As to the balance of the equities, I think the State’s argument is a good argument.
We’re here, whether we’re doing it the right way or the wrong way, the State is trying to reduce
the number of infections, the number of hospitalizations, the number of deaths that are coming
from this unprecedented pandemic.”); Legacy Church, Inc., 2020 WL 3963764, at *100. Under
the latest executive orders, Plaintiffs are allowed to attend indoor religious services and remove
their masks for religious purposes while remaining in compliance with the challenged orders. They
may also attend outdoor religious services with no capacity limitations, and the outdoor mask
requirement, only applicable where social distancing is impracticable, contains a religious purpose
exception. These orders are, in Defendants’ view, necessary to prevent further mass outbreaks of

26
App.27

Case 2:20-cv-05420-CCC-ESK Document 97 Filed 10/02/20 Page 27 of 27 PageID: 2720

infections and death across the state of New Jersey. As such, the Court finds that Defendants will
suffer greater harm if injunctive relief is granted and finds that the public interest does not favor
the requested relief.
V.

CONCLUSION

As the preliminary injunction factors have not been met here, Plaintiffs’ application for a
preliminary injunction is DENIED. Plaintiffs’ application for leave to file the Third Amended
Complaint is GRANTED. An appropriate Order accompanies this Opinion.
SO ORDERED.

DATE: October 2, 2020

CLAIRE C. CECCHI, U.S.D.J.

27
App.28

APPENDIX B

App.29

Case 2:20-cv-05420-CCC-ESK Document 108 Filed 10/28/20 Page 1 of 3 PageID: 3486
**NOT FOR PUBLICATION**
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

Civil Action No.: 20-5420
REV. KEVIN ROBINSON, et al.,
ORDER
Plaintiffs,
v.
PHILIP D. MURPHY, GOVERNOR OF
THE STATE OF NEW JERSEY, IN HIS
OFFICIAL CAPACITY, et al.,
Defendants.
CECCHI, District Judge.
This matter having come before the Court on Plaintiffs Reverend Kevin Robinson and Rabbi
Yisrael A. Knopfler’s (collectively, “Plaintiffs”) Motion for an Injunction Pending Appeal pursuant
to Rule 62(d) of the Federal Rules of Civil Procedure and Rule 8(a)(1)(C) of the Federal Rules of
Appellate Procedure (the “Motion”). ECF No. 100; and
WHEREAS Defendants Philip D. Murphy, Patrick J. Callahan, Lamont O. Repollet, Gurbir
S. Grewal, and Judith M. Persichilli (collectively, “Defendants”) oppose the motion. ECF No. 105;
and
WHEREAS on October 2, 2020, this Court entered an Opinion and Order denying
Plaintiffs’ request for injunctive relief as it found that Plaintiffs failed to satisfy any of the four
factors required to be met in order to obtain a preliminary injunction. See ECF No. 97 at 25–27
(finding that Plaintiffs failed to show a likelihood of success on the merits of their claims,
irreparable harm if injunctive relief was denied, that the balance of equities favored injunctive
relief, or that the public interest favored granting injunctive relief). ECF No. 98; and

1
App.30

Case 2:20-cv-05420-CCC-ESK Document 108 Filed 10/28/20 Page 2 of 3 PageID: 3487
WHEREAS Plaintiffs’ Motion incorporates Plaintiffs’ previous submissions by reference
and cites to a dissent from the U.S. Court of Appeals for the Ninth Circuit, see Harvest Rock
Church, Inc. v. Newsom, No. 20-55907, 2020 WL 5835219, at *2–6 (9th Cir. Oct. 1, 2020)
(O’Scannlain, J., dissenting), and a decision from the Michigan Supreme Court, see In re Certified
Questions From U.S. Dist. Court , W. Dist. of Mich., S. Div., No. 161492, 2020 WL 5877599 (Mich.
Oct. 2, 2020), to argue that injunctive relief should be granted. ECF No. 100 at 5–6; and
WHEREAS the standard for obtaining an injunction pending appeal is essentially the same
as the standard for obtaining a preliminary injunction and all four factors must be met. See
Conestoga Wood Specialities Corp. v. Sec’y of U.S. Dep’t of Health & Human Servs., No. 13-1144,
2013 WL 1277419, at *1 (3d Cir. Feb. 8, 2013) (citation and quotation marks omitted) (“[I]n
assessing the present motion for a stay pending appeal, we must consider the same four factors that
the District Court considered after an evidentiary hearing, ultimately concluding that preliminary
relief was not warranted. Such stays are rarely granted, because in our Court the bar is set
particularly high. Indeed, we have said that an injunction shall issue only if the plaintiff produces
evidence sufficient to convince the district court that all four factors favor preliminary relief.”); and
WHEREAS Plaintiffs’ Motion incorporating prior briefing and citing to a dissent from the
Ninth Circuit and a decision from the Michigan Supreme Court does not demonstrate why
Plaintiffs’ now satisfy the four preliminary injunction factors that the Court previously found were
not satisfied. See ECF No. 97 at 25–27; and
WHEREAS Plaintiffs’ prior submissions also rely, in part, on a district court opinion that
held certain of Pennsylvania’s COVID-19 restrictions unconstitutional, Cnty. of Butler, et al. v.
Wolf, No. 20-677, 2020 WL 5510690 (W.D. Pa. Sept. 14, 2020), however, on October 1, 2020, the
Court of Appeals for the Third Circuit stayed the district court’s order pending appeal. See Cnty. of
Butler, et al. v. Governor of Pa., No. 20-2936 (3d Cir. Oct. 1, 2020); and

2
App.31

Case 2:20-cv-05420-CCC-ESK Document 108 Filed 10/28/20 Page 3 of 3 PageID: 3488
WHEREAS the Court finds that an injunction pending appeal is not proper here as
Plaintiffs have not shown “(1) a likelihood of success on the merits; (2) that [they] will suffer
irreparable harm if the injunction is denied; (3) that granting preliminary relief will not result in
even greater harm to the nonmoving party; and (4) that the public interest favors such relief.” Kos
Pharm., Inc. v. Andrx Corp., 369 F.3d 700, 708 (3d Cir. 2004); see also Conestoga Wood
Specialities Corp., 2013 WL 1277419, at *1. The Court incorporates its reasoning set out in its
October 2, 2020 Opinion and Order as the facts before it remain largely the same at this juncture.
ACCORDINGLY, it is on this 28th day of October, 2020:
ORDERED that Plaintiffs’ Motion for an Injunction Pending Appeal (ECF No. 100) is
DENIED.
SO ORDERED.
CLAIRE C. CECCHI, U.S.D.J.

3
App.32

APPENDIX C

App.33

Case: 20-3048

Document: 27

Page: 1

Date Filed: 11/10/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
ACO-010-E
No. 20-3048
Rev. Kevin Robinson;
Rabbi Yirael A. Knopfler,
Appellants
v.
Governor of New Jersey; Colonel Patrick J. Callahan,
Superintendent of State Police and State Director of
Emergency Management in his official capacities;
Attorney General of New Jersey;
New Jersey Commissioner of Education;
New Jersey Commissioner of Health
(D.N.J. No. 2-20-cv-05420)
Present: MCKEE, GREENAWAY, JR., Circuit Judges
1. Appellants’ Emergency Motion for an Expedited Injunction Pending Appeal
with Exhibits
2. Appellee’s Response in Opposition to Appellants’ Motion for Injunction
3. Amici’s Response in Opposition to Appellants; Motion for Injunction

Respectfully,
Clerk/sb
_________________________________ORDER________________________________
The foregoing motion for an injunction pending appeal is DENIED.

By the Court,
s/ Theodore A. McKee
Circuit Judge
Dated: November 10, 2020
Sb/cc: All Counsel of Record

App.34

